Service List
Pakdel v. City and County of San Francisco
Counsel for Respondents City and County of San Francisco, et al.:
Dennis J. Herrera
City Attorney
Kristen A. Jensen
Christopher T. Tom
Deputy City Attorneys
City Attorney’s Office
City and County of San Francisco
1 Dr. Carlton B. Goodlett Place
City Hall, Room 234
San Francisco, CA 94102-4682
Telephone: (415) 554-4615
Email: cityattorney@sfcityatty.org
Email: kristen.jensen@sfcityatty.org
Email: christopher.tom@sfcityatty.org

